                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL




      AUDIT OF BONNEVILLE POWER ADMINISTRATION'S MANAGEMENT
                    OF INFORMATION RESOURCES




The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
Therefore, this report will be available electronically through
the Internet five to seven days after publication at the
following alternative addresses:

            Department of Energy Headquarters Gopher
                        gopher.hr.doe.gov

         Department of Energy Headquarters Anonymous FTP
                       vm1.hqadmin.doe.gov

Department of Energy Human Resources and Administration Home Page
                    http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the
Customer Response form attached to the report.

              This report can be obtained from the
                    U.S. Department of Energy
         Office of Scientific and Technical Information
                           P.O. Box 62
                   Oak Ridge, Tennessee 37831




Report Number: WR-B-96-06      Western Regional Audit Office
Date of Issue: April 2, 1996   Albuquerque, New Mexico 87185-5400


      AUDIT OF BONNEVILLE POWER ADMINISTRATION'S MANAGEMENT
                    OF INFORMATION RESOURCES
                         TABLE OF CONTENTS



                                                               Page

            SUMMARY ........................................     1

PART I    - APPROACH AND OVERVIEW ..........................     2

            Introduction ...................................     2

            Scope and Methodology ..........................     2

            Observations and Conclusions ...................     3

PART II   - FINDING AND RECOMMENDATIONS ....................     5

            Management of Information Resources ............     5

PART III - MANAGEMENT AND AUDITOR COMMENTS ................     12

PART IV   - APPENDIX .......................................    17

            Details of Statistical Sample Projection........    17
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES
                  WESTERN REGIONAL AUDIT OFFICE


      AUDIT OF BONNEVILLE POWER ADMINISTRATION'S MANAGEMENT
                    OF INFORMATION RESOURCES


Audit Report Number: WR-B-96-06


                             SUMMARY


     Bonneville Power Administration s (Bonneville) information
resources include computer-related equipment, spare parts, and
computer software. The objective of this audit was to determine
whether Bonneville acquired and accounted for computer-related
equipment properly.

     We found positive aspects in Bonneville s management of
computer-related equipment. However, improvements could be made
in implementing credit card and property procedures.
Specifically, we found that improvements were needed to
(1) control credit card purchases, (2) ensure that equipment was
tagged and included in property records, (3) maintain
accountability over spare parts, and (4) identify unused
equipment. As a result, about $90,000 of equipment was bought by
personnel whose authority to purchase was not properly
documented, and about $182,000 of purchases lacked supporting
invoices. In addition, one maintenance support group had over
$109,000 of spare parts shortages. Furthermore, Bonneville could
have saved about $803,000 had unused equipment been redistributed
within Bonneville or to other Federal and state agencies.

     Management concurred with the recommendations to improve
internal controls.



                              ________(Signed)__________
                              Office of Inspector General

                             PART I

                      APPROACH AND OVERVIEW


INTRODUCTION

     Bonneville considered information to   be a key asset and
expected Information Resources Management   (Information Resources)
personnel to make business processes more   efficient.
Bonneville s expenditures for information   resources totaled
$175.8 million for Fiscal Years 1991 through 1995. The objective
of this audit was to determine whether Bonneville acquired and
accounted for computer-related equipment properly.

SCOPE AND METHODOLOGY

     To determine whether Bonneville s acquisition of
computer-related equipment was proper, we limited our review to
determining whether credit card purchases of computer-related
equipment complied with Bonneville s acquisition procedures. To
determine whether Bonneville acted prudently with regard to
property received and on hand, we focused on a limited number of
property management issues. Specifically, we reviewed property
tagging, the use of spare parts inventory reports, and the
treatment of unused property, to determine compliance with
applicable Bonneville procedures.

     The audit was performed from August 1994 to October 1995 at
Bonneville Power Administration. The audit covered the
acquisition and accountability of computer-related equipment
(personal computers, monitors, printers, spare parts, and
software) from July 1993 through February 1995. Mainframe
computers and computers used for technical and scientific
applications were excluded from the scope of our audit except for
the property management issues mentioned above.

      To accomplish the audit objective, we:

  o   reviewed Federal and Bonneville guidance on administration
      and management of information resources;

  o   interviewed Bonneville officials to understand their
      procedures for acquiring, accounting for, and excessing computer-
      related equipment;

  o   interviewed Bonneville officials responsible for
      implementation of the Accelerated Buying Card Program;

  o   obtained credit card rosters and compared purchases made by
      cardholders with authorizations and monetary limits shown in the
      rosters;

  o   analyzed inventory records, purchase documents, and usage
      reports maintained by personal computer maintenance support
      groups from July 1994 through February 1995; and,

  o   statistically sampled 137 items of computer-related
      equipment from a universe of 12,376 items (excluding spare parts)
      included in property records.

     The audit was made according to generally accepted
Government auditing standards for performance audits and included
tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. Accordingly, we assessed the significant internal
controls with respect to credit card purchases, accounting for
computer-related equipment, controls over spare parts, and
disposition of unused equipment. Our assessment consisted of
reviewing internal control procedures and practices for these
four areas. We relied on computer-generated acquisition and
accountability data and, therefore, examined the reliability of
the data on a test basis. Because our review was limited, it
would not necessarily have disclosed all internal control
deficiencies that may have existed at the time of our audit.

     An exit conference was held with the managers of Contracts
and Property Management and Financial Operations, as well as
representatives from Information Resources, on January 29, 1996.

OBSERVATIONS AND CONCLUSIONS

     We found that improvements can be made to Bonneville's
credit card acquisitions of computer-related equipment. For
example, many credit card purchases were made by employees whose
authority to buy was not properly documented, and the purchasing
files often lacked invoices that would show what was purchased.
Some purchasers also exceeded their purchasing dollar limits.

     In some respects, Bonneville was acting prudently after
acquiring equipment. Once property was recorded in the Personal
Property Accounting System, it could be located with available
records. However, other aspects of accountability for
computer-related equipment warranted attention. For instance,
management did not follow up timely on spare parts inventory
variance reports that showed substantial shortages. Also,
Bonneville missed the opportunity to reduce its Federal debt by
about $803,000 by redistributing unused equipment.

     Our finding relating to Bonneville's management of
information resources disclosed material internal control
weaknesses that management should consider when preparing its
annual management reports to the President and Congress.


                               PART II

                   FINDING AND RECOMMENDATIONS

               Management of Information Resources

FINDING

     To satisfy the needs of computer users and achieve other
goals, Bonneville had established acquisition and property
management procedures. However, these procedures were not always
implemented by Bonneville personnel. For example, almost 43
percent of a sample of credit card purchases were made by
employees whose authority to buy computer-related equipment was
not documented properly. Additionally, inventory reports showing
shortages for one maintenance group were not being followed up on
timely, and unused equipment was not being redistributed. Parts
recorded by technicians as having been used in repair orders had
not actually been installed, and Bonneville lacked a quality
assurance procedure to detect this. As a result, about $90,000
of equipment was bought by personnel whose authority to purchase
was not properly documented, about $182,000 of purchases lacked
supporting invoices, at least $109,000 of spare parts shortages
occurred, and Bonneville missed the opportunity to reduce its
Federal debt by about $803,000.

RECOMMENDATIONS

     We recommend that the Administrator and Chief Executive
Officer, Bonneville Power Administration, direct the appropriate
Bonneville personnel to:

      1. Establish procedures to periodically review and update the
         roster of credit cardholders and their purchasing authorities.

      2. Periodically review a sample of credit card purchases to
         determine whether cardholders and approving officials are
         fulfilling their responsibilities under the credit card
         program.

      3. Tag and include in property records the 44 pieces of
         computer-related equipment identified during the audit.

      4. Ensure that all future purchases of computer-related
         equipment made with credit cards are tagged upon receipt
         and included in property records.

      5. Analyze monthly spare parts inventory results to make sure
         parts are properly accounted for and follow up on any unusual
         transactions or balances.

      6. Investigate the spare parts shortages identified during the
         audit to determine the cause.

      7. Establish quality assurance procedures to verify that
         maintenance work has been performed.

      8. Enforce the requirements to identify unused equipment for
         redistribution to Federal or state agencies or within Bonneville.

MANAGEMENT REACTION

     Management concurred with the recommendations. Part III of
the report provides detailed management and auditor comments.

                        DETAILS OF FINDING

ACQUISITION AND ACCOUNTABILITY PROCEDURES

     To ensure that acquisitions were proper, Bonneville had
established a system of acquisition procedures. While these
procedures authorized credit card purchases, they also set forth
some rules to be followed. Specifically, the August 1992 guide,
BPA s Accelerated Buying Card (ABC) Program, The ABC Method for
Small Purchases:

  o   prohibited the use of credit cards for the acquisition of
      computer-related equipment without specific authority;

  o   required cardholders to submit their monthly statements with
      supporting documentation to their approving officials for the
      official's review and approval;

  o   prohibited cardholders from exceeding their assigned dollar
      limits; and,

  o   prohibited cardholders from splitting their purchases for
      the purposes of staying under their dollar limits.

Additionally, approving officials were to review credit card
transactions, and cardholders and approving officials were to be
trained.

     After computer-related equipment had been acquired,
Bonneville was accountable for the equipment. It was
Bonneville's responsibility to design property management
procedures that would provide reasonable assurance that the
equipment would not be misappropriated or left unused.
Accordingly, Bonneville had established procedures that required:

  o   property to be tagged by property custodians upon receipt,
      and added to the property records;

  o   inventory variances to be followed up on by inventory
      management specialists; and,

  o   unused equipment to be identified by property custodians and
      redistributed.

These procedures were contained in Bonneville's Operating
Procedures for Personal Property Custodians and in the computer
facilities support services contract.

ACQUISITIONS USING CREDIT CARDS

     Bonneville's employees did not always follow the credit card
program procedures. Bonneville used credit cards to purchase
computer-related equipment including personal computers, color
monitors, printers, and scanners. A judgmental sample of 408
credit card transactions, totaling over $1 million, for the
15-month period ended September 30, 1994, disclosed that
Bonneville personnel: (1) purchased computer-related equipment
without proper authorization; (2) did not have documentation in
the files to support credit card purchases; and (3) split
purchases to avoid transaction limits.

Authorization

     Personnel purchased computer-related equipment even though
their authority to purchase was not properly documented. We
compared the credit card roster, which shows the types of goods
cardholders are authorized to purchase, to the monthly
statements. The comparison showed that 174 purchases of computer-
related equipment--almost 43 percent of the sample transactions--
were made by personnel whose authority to purchase the equipment
was not properly documented (that is, the cardholder roster did
not show the purchasing authority appropriate to the individual s
work activities and responsibilities). These purchases totaled
about $90,000. When we discussed this with credit card
officials, they agreed that the roster should be reviewed
periodically by the approving official to make sure that the
cardholder purchasing authorizations shown in the roster are
correct.

Documentation

     Files did not contain documentation to support purchases
made by credit cardholders. We found 74 purchases--18 percent of
the sample transactions--totaling $181,936 that lacked supporting
documentation. For example, in May 1994, one employee made
purchases of $24,975 and $24,985 from one vendor. The purchasing
files did not contain any invoices to show what had been
purchased. Nevertheless, the employee's approving official
approved the invoice.

     Approving officials offered two possible reasons why the
invoice support was missing. First, the supporting invoices had
been attached to the credit card bills when they reviewed the
bills, but the invoices were subsequently lost. Second, some
cardholders and approving officials may not have been aware of
the change to the credit card program that required supporting
invoices. The program originally did not require invoices to be
submitted with the bills.

Credit Card Limits

     Cardholders split purchases to avoid credit card limits.
Each cardholder was assigned a maximum single transaction dollar
limit. We considered it a split purchase if one cardholder made
multiple purchases on the same day with the same vendor and the
total of the purchases exceeded the single transaction limit.
Our analysis showed that cardholders split their purchases 44
times to avoid exceeding their single transaction limit. For
example, one cardholder made five purchases, each over $6,000,
with the same vendor on the same day. However, the cardholder's
single transaction limit was only $10,000. Thus, by splitting
the purchases, the cardholder purchased over $30,000 of
equipment, which was more than three times the assigned limit.

     Cardholders and approving officials stated that sometimes
purchases were split because they thought it was more important
to obtain the computer-related equipment than to follow the
credit card procedures. Bonneville had a procedure whereby a
cardholder s limit could be raised temporarily. We agree that
there may be cases where the limit needs to be raised on an
exception basis. However, the credit card program requirements
which have been implemented show that Bonneville intends for its
approving officials and cardholders to adhere to the program s
procedures.

ACCOUNTABILITY ISSUES
     Bonneville employees were not always following procedures
that were intended to enhance accountability. Weaknesses were
found in property tagging, following up on spare parts inventory
reports, and redistributing unused equipment.

Property Tagging and Records

     Property custodians did not ensure that equipment was tagged
and included in property records. During our September and
October 1994 testing for unused equipment, we found 51 items--all
easily removable and convertible to personal use--that were not
tagged. A year later, 44 of the 51 items still had not been
tagged.

     The property program manager offered various explanations.
The manager stated that the equipment may not have been tagged
upon receipt because it was purchased by credit card. This
acquisition method took the equipment outside of the normal
receipt-tagging procedure. The manager also stated that the
credit card purchaser may not have known which items were
required to be tagged and included in the property records. The
manager stated that he had not tagged the equipment that we had
identified in 1994 because he did not have time to track down
items that most likely would have moved in the interim. The
manager was not able to provide us with the value of the untagged
computer equipment.

Follow up on Spare Parts

     Bonneville maintained quantities of spare parts in order to
install, upgrade, and perform maintenance on personal computers.
Personnel were assigned to four maintenance support groups to
maintain adequate accountability over spare parts and perform
required maintenance work. Prior to June 1994, personnel in the
maintenance support groups were not required to conduct spare
part inventories. To its credit, Information Resources realized
that not conducting inventories was a serious internal control
weakness. Thus, support group personnel were required to conduct
monthly inventories beginning in June 1994, and the results were
sent to management for review and analysis.

     Nonetheless, one support group reported discrepancies in
spare parts that did not prompt follow up by management for
several months. We reviewed the inventory records for 418 line
items (that is, unique combinations of part numbers and purchase
dates) for all four maintenance work groups for October and
November 1994. For 32 of these line items, one support group had
discrepancies for 94 and 86 percent of its balances in October
and November, respectively. These discrepancies involved
situations in which the inventory records indicated that parts
were unaccounted for or more parts were used than were on hand.
For the 2 months, these discrepancies totaled $50,621 and
$14,166, respectively. Therefore, we expanded our review for
this support group to include the 8-month period from July 1994
through February 1995. We determined that the group s balances
were inaccurate for 67 percent of the 32 line items. Some
examples of discrepancies are shown below:

  o   The group had 16 memory chips with a total value of $2,544
      on hand at the beginning of July 1994. There were no
      transactions during the month but the group reported only
      three chips on hand at the end of the month. Therefore, the
      group was short 13 memory chips with a total value of $2,067
      for the month.

  o   The group reported in July 1994 that it used 50 hard drives
      when only 30 were available in inventory. As a result, the
      group reported that it had used 20 hard drives with a total
      value of $5,560 when they were not available.

     We found that reports showing variances were not immediately
used by management to identify potential problems and to follow
up to determine their causes. Although the group reported a
$14,037 overage in July 1994 and a $28,917 shortage in September
1994, it was not until December 1994 that management began to
take action to resolve the discrepancies. Thus, the
discrepancies continued, and by February 1995, the group had
experienced over $109,000 of spare parts shortages. This
occurred while the group was managing only 32 line items with an
average end-of-the-month inventory value of $23,394.

     Our review also revealed that the group reported work as
completed, but the work was not performed. We judgmentally
sampled 19 completed work orders--valued at $28,725--for personal
computers. With the assistance of maintenance personnel, we
inspected the 19 computers and discovered that $4,047 of repair
parts for 3 work orders had not been installed. The computer
users were not aware that the parts were not installed. The
installer signed the work orders as being completed, but
Bonneville had not established and implemented quality assurance
procedures to ensure that work was performed.

Unused Equipment

     Bonneville was not getting all of its unused equipment into
the hands of people who could use it. As of August 24, 1994,
there were 12,376 computer-related pieces of equipment in the
property records with an acquisition cost of $39.3 million.
Using the statistical sampling methodology described in the
appendix, we found that Bonneville had at least 703 pieces of
equipment in the population that could be redistributed within
Bonneville or to other Federal or state agencies.

     Placing this equipment with people who could use it would
have provided an economic benefit to Bonneville. Discussions
with property management personnel disclosed that some of the
unused property could be reused within Bonneville, thereby
eliminating some purchases. Alternatively, Bonneville could have
redistributed the equipment to other Federal or state agencies.
We estimated that if all of the unused equipment were placed with
other Federal or state agencies, Bonneville could have received
about $803,000 of Treasury credit against its Federal debt. The
estimate was based on an acquisition cost of about $1,003,700 for
this equipment and the credit of 80 percent of acquisition cost
received by Bonneville in Fiscal Year 1994 for excess
computer-related equipment transferred or donated to such
agencies ($1,003,700 x .80).

     Equipment was not placed with those who could use it because
property custodians were not following control procedures. To
ensure equipment was used efficiently, property custodians were
to report unused equipment to property managers. However,
property custodians stated that this was not always happening for
several reasons, including (1) they did not know the equipment
was not being used, (2) they did not view identifying excess
equipment as a high priority, and (3) they did not excess
property if they believed there was a possibility of future use.

IMPACT OF PROCEDURAL LAPSES

     As a result, about $90,000 of equipment was bought by
personnel whose authority to purchase was not properly documented
and about $182,000 of purchases lacked supporting invoices.
However, $34,000 of the purchases were included in both
categories. In addition, Bonneville did not have accurate
property records showing the quantities and types of computer
equipment on hand and had increased exposure to misappropriation
of unrecorded assets. In fact, one maintenance support group had
a total of over $109,000 of spare parts shortages during an
8-month period and had no assurance that over $4,000 of spare
parts were installed on computers. Furthermore, based on
statistical analysis (see appendix), we estimated that Bonneville
missed the opportunity to reduce its Federal debt by about
$803,000 because it did not redistribute unused computer
equipment.

     Bonneville's goal to become more competitive and
cost-conscious could be facilitated by implementing the
recommendations in this report.

                              PART III

                   MANAGEMENT AND AUDITOR COMMENTS


     Management concurred with the recommendations but disagreed
with the presentation of some of the facts in the report and the
potential monetary impact. Management stated that its
concurrence with the recommendations was based on the fact that
BPA had observed situations similar to those being reported by
the Office of Inspector General and had initiated corrective
action as early as September 1994. Management also stated that
the report provided a historical perspective and did not reflect
current conditions and the steps taken to improve internal
controls. Management commented that the audited period was the
time shortly after the credit card program had been implemented,
a time when it was unrealistic to expect that problems would
never occur.

Recommendation 1
     Management Comments. Management concurred with the
recommendation that procedures be established for periodic review
and update of the roster of credit cardholders and their
purchasing authorities. Management began corrective actions in
September 1994 which were completed in October 1994. Following
existing practices, Bonneville continues to periodically review
and update the roster of credit cardholders and their purchasing
authorities. Specifically, in order to make automatic data
processing authority more defined, they have added a new code for
special purpose automatic data processing hardware and software.
The roster of credit cardholders and their purchasing authorities
will continue to be distributed annually to supervisors for
updating as necessary.

     Auditor Comments.   Management was responsive to the
recommendation.

Recommendation 2

     Management Comments. Management concurred with the
recommendation that a sample of credit card purchases be
periodically reviewed. Bonneville stated that the financial
program manager has always insured that all signed, certified
credit card statements were received to document payment and that
cards had been suspended or canceled. Management also stated
that the credit card program administrator has always routinely
reviewed purchases and called attention to purchases that
appeared to be inappropriate.

     Bonneville pointed out several control improvements. First,
in October 1994, a financial reengineering effort improved the
filing and retrieval of credit card documents and implemented
automated controls to ensure that all statements are accounted
for. Second, since October 1994, the credit card program
administrator now reviews one-third to one-half of the original
statements and receipts so that all statements receive 100
percent review at least quarterly. This review consists of
comparing items purchased to the authorization codes on the
roster. The reviews also check for proper coordination of
sensitive equipment with the appropriate property program
manager, as well as ensuring that orders are not split, original
receipts are attached, the best buy is received, and charges,
such as sales tax and services, are appropriate. Finally, in
September 1995, a revised credit card manual was issued, and it
implemented improved controls.

     Management did not agree that there was $182,000 of
unsupported credit card purchases. Bonneville commented that
some documentation dating back several years has been displaced;
however, internal controls would not have permitted payment for
the charges without first reviewing all required documentation.

     Auditor Comments. Management was responsive to the
recommendation. However, we determined that $182,000 of credit
card purchases did not include supporting invoices. Management's
comment that the financial program manager has always ensured
that all signed, certified card statements were received is
inconsistent with our audit results. Cardholders and approving
officials stated that the credit card program originally did not
require invoices to be submitted with the bills. In addition,
management was not able to provide invoices for one cardholder
for 14 of the 15 months reviewed.

Recommendation 3

     Management Comments. Management concurred and Information
Resources is reviewing the list of 44 untagged items. Compliance
should occur by June 1996.

     Currently, the Information Resources property program
manager is the sole person responsible for distribution of
automatic data processing tags. Information Resources is in the
process of developing new procedures that aid in the tagging of
automatic data processing equipment. A potential change that has
been discussed is having the Information Resources property
program manager assign a block of unassigned automatic data
processing tag numbers to a store site outside headquarters.
This will allow speed-up of the tagging process and should ensure
that equipment received outside the headquarters building will be
tagged upon receipt.

      Information Resources is currently developing a new database
software program called Asset Pro that will aid not only with
this recommendation but with Recommendation 4 as well. Full
implementation of Asset Pro is scheduled to be in place by June
1996.

     Auditor Comments.   Management was responsive to the
recommendation.

Recommendation 4

     Management Comments. Bonneville concurred and stated that
the Information Resources unit has procedures in place to ensure
that equipment purchased with credit cards is tagged upon
receipt. All automatic data processing equipment purchased by
Information Resources personnel is centrally received by the
Information Resources property program manager and tagged as
appropriate. However, Information Resources has no control of
the automatic data processing equipment purchased by personnel
outside the Information Resources unit. Therefore, Information
Resources has recommended that the Administrator issue a
memorandum to all existing cardholders outlining their
responsibilities when purchasing automatic data processing
equipment. A copy of the letter will be included in the training
packet for new cardholders. Target completion date for this
recommendation is July 1996.

     Auditor Comments.   Management was responsive to the
recommendation.

Recommendation 5
     Management Comments. Management agreed to analyze monthly
spare parts inventory results. In September 1995, Information
Resources developed and implemented procedures to reconcile the
maintenance/install spare parts inventory on a monthly basis.
Overages and shortages are reconciled by the Information
Resources maintenance project lead.

     Auditor Comments.   Management was responsive to the
recommendation.

Recommendation 6

     Management Comments. Management agreed to investigate the
parts shortages. This situation was identified by Bonneville in
December 1994 and coordinated with the Inspector General's
office. Information Resources reviewed internal controls and the
monthly spare parts inventory results to make sure parts were
properly accounted for and implemented improved procedures that
we believe will prevent a recurrence of the problem. Information
Resources has also asked Bonneville Internal Audit Services to
review new procedures and make further recommendations if their
study shows continued weaknesses. These actions were completed
in January 1996.

     Bonneville's preliminary conclusion is that there was not a
$109,000 parts shortage. Rather, there was a system weakness
that should be resolved with implementation of the
recommendation.

     Auditor Comments. Management was responsive to the
recommendation. However, our audit results confirm that one
support group experienced over $109,000 of spare parts shortages
during the 8-month period reviewed. We computed the shortages
using the monthly inventories, purchase records, and usage
reports. This analysis was performed for each of the line items
during the 8-month period. The results were discussed with
Information Resources personnel, and they agreed that the
calculation of parts shortages was accurate.

Recommendation 7

     Management Comments. Bonneville agreed to verify that
maintenance work was performed. The new process which
Information Resources implemented in November 1995 has been
tagged the "Buddy System." Under the buddy system, the person
performing the work will have an independent quality review of
all work through a peer check to ensure parts identified in the
worksheet are actually installed. This process is now used for
all maintenance and install work performed by Information
Resources.

     Auditor Comments.   Management was responsive to the
recommendation.

Recommendation 8

     Management Comments.   Management concurred with the
recommendation to identify unused equipment and redistribute it.
The Information Resources unit has complied with the requirement
to identify unused equipment and to redistribute it to other
Federal agencies and schools. Within the last month, Information
Resources has disposed of all unused equipment for which it had
responsibility. The equipment was given to schools or made
available for other Federal and state agencies. However,
Information Resources is not in a position to enforce compliance
of this requirement with managers outside the Information
Resources unit where the majority of the unused equipment was
found during the audit. Therefore, a memorandum from the
Administrator to all employees will be issued by June 1996
outlining the responsibility of managers to ensure that unused
equipment is properly disposed of.

     Management did not agree that Bonneville could have reduced
its Federal debt by $803,000. While historically it may have
been possible to recover 80 percent of acquisition cost, rapid
technological change has substantially decreased the amount that
can be received when disposing of obsolete equipment, much of
which can only be sold for scrap.

     Auditor Comments. Management was responsive to the
recommendation. We used statistical sampling techniques and
difference estimation analysis to calculate that Bonneville could
have reduced its Federal debt by $803,000. We reviewed all
Federal credits received by Bonneville for redistributed
equipment in Fiscal Year 1994 and determined that Bonneville on
average received 80 percent of acquisition cost for automatic
data processing equipment. These calculations were reviewed by
personnel from Financial Operations, and they agreed with the
results. The percent of acquisition cost which Bonneville
receives to reduce its Federal debt is based on the condition of
the equipment when it is redistributed. As long as the equipment
can be redistributed, rapid technological change will not
decrease the Federal credit received.

                             PART IV

                            APPENDIX

            Details of Statistical Sample Projection


     We used statistical sampling techniques to determine whether
Bonneville was getting unused computer-related equipment into the
hands of people who could use it. We selected a statistical
sample of computer-related equipment using a report of
computer-related equipment from Bonneville's Personal Property
Accounting System. The report showed a total population of
12,376 items on hand as of August 24, 1994.

     We used attribute sampling to determine the total number of
items of equipment that were not being used and that could be
redistributed within Bonneville or to other Federal and state
agencies. Each item of computer-related equipment constituted a
sampling unit. We used the random number generator in the U.S.
Army Audit Agency statistical sampling program to randomly select
137 individual units. We considered the sample unit an error if
the item was not currently in use, had not been in use for the
past 2 months, and could be redistributed. Based on the 12 error
values found in the sample, we are 90 percent confident that at
least 703 (5.7 percent) units in the population were not being
used and could be redistributed within Bonneville or to other
Federal and state agencies.

     Also, we used difference estimation analyses to estimate the
potential economic benefit. We projected the results of our
analysis for the 137 sample items to the population by using
acquisition cost. Based on our sample, we are 90 percent
confident that Bonneville had equipment with an acquisition cost
of about $1,003,700 that could have been made available for use
within Bonneville or to other Federal and state agencies. Using
the 80 percent rate of credit that Bonneville received for
redistributed equipment in Fiscal Year 1994, we estimated that a
credit of about $803,000 could be received for this unused
equipment ($1,003,700 x .80).
                                        IG Report No. WR-B-96-06

                     CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in
improving the usefulness of its products. We wish to make our
reports as responsive as possible to our customers' requirements,
and therefore ask that you consider sharing your thoughts with
us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

What additional background information about the selection,
scheduling, scope, or procedures of the audit or inspection would
have been helpful to the reader in understanding this report?

What additional information related to findings and
recommendations could have been included in this report to assist
management in implementing corrective actions?

What format, stylistic, or organizational changes might have made
this report's overall message more clear to the reader?

What additional actions could the Office of Inspector General
have taken on the issues discussed in this report which would
have been helpful?

Please include your name and telephone number so that we may
contact you should we have any questions about your comments.


Name___________________________   Date __________________________

Telephone______________________   Organization___________________

When you have completed this form, you may telefax it to the
Office of Inspector General at (202) 586-0948, or you may mail it
to:

      Office of Inspector General (IG-1)
      Department of Energy
      Washington, D.C. 20585
      ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff
member of the Office of Inspector General, please contact Wilma
Slaughter at (202) 586-1924.
